No. 20-1376

In the Supreme Court of the United States
MICHAEL ABATTI AND MIKE ABATTI FARMS, LLC,
Petitioners,
v.
IMPERIAL IRRIGATION DISTRICT,
Respondent.
CERTIFICATE OF WORD COUNT
I, H. Christopher Bartolomucci, a member of the Bar of this Court, hereby
certify under Supreme Court Rule 33.1(h) that the Reply Brief for Petitioners
complies with the word limitations in Supreme Court Rule 33.1(g). I further certify
that the brief contains 2,962 words, excluding the parts of the brief that are exempted
by Supreme Court Rule 33.1(d).

/s/ H. Christopher Bartolomucci
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Petitioners

